 QUALITY CONTROL REVIEW OF BERENSON & COMPANY        LLP
       AND THE DEFENSE CONTRACT AUDIT AGENCY
             RIVERSIDE RESEARCH INSTITUTE
         FISCAL YEAR ENDED NOVEMBER 30,1996


Report Number PO 98-6-010                April 13, 1998




             Office of the Inspector General
                 Department of Defense
Additional    Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
the Analysis, Planning, and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
or FAX (703) 604-8932 or visit the Inspector General, DOD, Home Page at:
WWW.DODIG.OSD.MIL

Suggestions   for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 80 1)
                       Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
sending an electronic message to Hotline@DODIG.OSD.MIL;         or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms

DCAA            Defense Contract Audit Agency
GAO             General Accounting Office
OMB             Office of Management and Budget
                                                                         April 13, 1998



Mr. Andrew Levine, Partner
Berenson & Company LLP
Certified Public Accountants
135 West 50th Street, 21st Floor
New York, NY 10020

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-62 19


SUBJECT:     Quality Control Review of Berenson & Company LLP
              and the Defense Contract Audit Agency
             Riverside Research Institute
             Fiscal Year Ended November 30, 1996
             Report No. PO98-6-010 (Project No. 80A-9-008.01)


Introduction

       We are providing this report for your information. The New York City offices of
       Berenson & Company LLP (Berenson), and the Defense Contract Audit Agency
       (DCAA), performed the coordinated single audit for Riverside Research Institute (the
       Institute), New York City, a nonprofit organization. The audit is required by Office of
       Management and Budget (OMB) Circular A-133, “Audits of Institutions of Higher
       Education and Other Nonprofit Institutions. ” For the fiscal year ended
       November 30, 1996, the Institute reported total Federal expenditures of $4,704,781,
       representing $3,384,735 for the Department of Defense (DOD) and $1,320,046 for
       other Federal agencies.

       The Berenson audit report, dated February 10, 1997, issued an unqualified opinion on
       the financial statements, Schedule of Federal Awards, and the reports on internal
       controls and compliance requirements. The DCAA issued an unqualified opinion on its
       incurred cost audit report dated September 17, 1997. The DCAA also issued on
       September 18, 1997, a report on Internal Controls Used in Administering Research and
       Development Program that reported instances of significant deficiencies considered to
       be reportable conditions. Specifically, these conditions related to Cash Management
       and the Institute’s failure to remit drawdown funds to subcontractors on a timely basis.
     Berenson issued positive and negative assurance statements on compliance with general
     requirements.     Positive assurance means that, with respect to the items tested, the
     results of auditors’ procedures disclosed no material instances of noncompliance.
     Negative assurance means that, with respect to the items not tested, nothing came to the
     auditors’ attention that caused them to believe that the Institute has not complied in all
     material respects.

     The auditors also obtained an understanding of the internal controls related to the
     financial statements and Federal awards. The audit report describes the auditors’ scope
     of work in obtaining that understanding and in assessing control risk. The report on
     internal controls further describes the significant internal controls and control structure,
     including reportable conditions, material weaknesses, and controls that provide
     reasonable assurance that Federal awards are being managed in accordance with
     applicable laws and regulations.

Quality Control Review Results

     The OMB Circular A-133 audit performed by Berenson and DCAA meets the
     applicable guidance and regulatory requirements in the OMB Circular A-133 and its
     related Compliance Supplement, which incorporate the Government Auditing Standards
     and Generally Accepted Auditing Standards.

Quality Control Review Objective

     The objective of a quality control review is to ensure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of OMB
     Circular A-133. As the Federal oversight agency for the Institute, we conducted a
     quality control review of Berenson and DCAA audit working papers for their audit of
     the Institute. We focused our review on the following qualitative aspects of the audit:
     due professional care, planning, supervision, independence, quality control, internal
     controls, substantive testing, general and specific compliance testing, and the Schedule
     of Federal Awards.

     We reviewed the most recent peer review letter issued for Berenson, by LaPorte, Sehrt,
     Romig & Hand, Certified Public Accountants & Consultants, on September 1 I, 1996.
     The peer review found that Berenson met the objectives of the quality control’ review
     standards established by the American Institute of Certified Public Accountants and that
     the standards were being complied with during the fiscal year ended June 30, 1996.
     However, the peer review letter contained recommendations     for improvements in the
     area of supervision.




                                               2
Scope and Methodology

     We used the 1991 edition of the Uniform,Quality Control Guide for Single Audits (the
     Guide), which was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures.    The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. The Guide is further divided into the substantive work performed during the
     audit of the financial statements and the specific program compliance testing for major
     programs.    In addition, we supplemented the Guide to include additional review of
     transaction testing. Our review was conducted from December 15 through
     December 19, 1997.

     Our quality control review of the audit working papers covered areas related to the
     financial statements and the research and development program. The research and
     development program expenditures totaled approximately $4.7 million and accounted
     for 100 percent of total Federal award expenditures at the Institute.

Results of Prior Quality Control Reviews

     We have not previously   conducted   a quality control review   of Berenson & Company,
     LLP.



Background

     The inspector General Act of 1978, Public Law 95-452, prescribes the duties and
     responsibilities of that office. In implementing those responsibilities. the Inspector
     General is required to “take appropriate steps to assure that any work performed by
     non-Federal auditors complies with the standards established by the Comptroller
     General. ”

     The Single Audit Act (the Act) of 1984 (Public Law 98-502) was intended to improve
     the financial management of state and local governments whose total annual
     expenditures are $100,000 or more with respect to Federal financial assistance
     programs; to establish uniform requirements for audits of Federal financial assistance;
     to promote efficient and effective use of audit resources; and to ensure that Federal
     departments and agencies rely on and use the audit work done under the Act, to the
     maximum extent practicable.

     The Single Audit Act Amendments of 1996 (the Amendments),         based on 12 years of
     experience under the 1984 Act, are intended to strengthen the usefulness of single
     audits by increasing the audit threshold from $lOO,OOO to $300,000 in Federal financial
     assistance before an audit is required under the Act; by selecting programs to be
     audited on the basis of risk assessment rather than the amount of funds involved; and
      by improving the contents and timeliness of single audits. The Amendments also bring
      nonprofit organizations, previously covered by similar requirements in the OMB
      Circular A-133, under the Single Audit Act provisions.

      The OMB Circular A-133 establishes the Federal audit and reporting requirements for
      nonprofit and educational institutions whose Federal awards are or exceed $100,000.      It
      provides that an audit made in accordance with the Circular shall be in lieu of any
      financial audit required under individual Federal awards. An agency must rely on the
      audit to the extent that it provides the information and assurances that an agency needs
      to perform its overall responsibilities.  The coordinated audit approach provides for the
      independent public accountant, Federal auditor, and other non-Federal auditors to
      consider each other’s work in determining the nature, timing, and extent of their
      respective audit procedures.    The Circular also requires that the cognizant agency
      obtain or conduct quality control reviews of selected audits made by non-Federal
      auditors and provide the results, when appropriate, to other interested organizations.
      The revised OMB Circular A-133 was issued on June 24, 1997, to incorporate the
      changes in the Single Audit Act Amendments of 1996. Its provisions apply to audits of
      fiscal years beginning after June 30, 1996.



Discussion of Results

      During our quality control review, we reviewed and took no exception     to the working
      papers supporting the following reports:

      Independent Auditor’s Report. The auditor is required to obtain reasonable
      assurance about whether the financial statements are free of material misstatement.   We
      reviewed the audit program and the testing of evidence to determine whether testing
      was sufficient, based on assessment of control risk, to warrant the conclusion reached
      and to determine whether the working papers supported the conclusion.

      Independent Auditor’s Report on Schedule of Federal Awards. The auditor is
      required to subject the schedule to the auditing procedures applicable to the audit of the
      financial statements and to ensure that the amounts are fairly stated in relation to the
      basic financial statements.  Our review was included in the steps of evaluation of the
      audit working papers related to the Independent Auditors’ Report.

      Independent Auditor’s Report on Internal Control Structure Based on an Audit of
      Consolidated Financial Statements Performed in Accordance with Government
      Auditing Standards.      The auditor is required to obtain an understanding of the internal
      control structure that is sufficient to plan the audit and to assess control risk for the
      assertions embodied in the financial statements. We reviewed the audit program for the
      appropriate procedures, the working paper documentation,        and the substantive testing
      performed.
Independent Auditor’s Report on Internal Control Structure Used in
Administering Federal Awards. The auditor is required to obtain an understanding of
the internal control structure to assess control risk to determine whether the auditor
intends to place reliance on the internal control structure. The auditor must perform
tests of controls to evaluate the effectiveness of the design and operation of the policies
and procedures in preventing or detecting material noncompliance, to review the system
for monitoring subrecipients and obtaining and acting on subrecipient audit reports, and
to determine whether controls are effective to ensure that direct and indirect costs are
calculated and billed as required by the Compliance Supplement. We reviewed the
audit program for the appropriate procedures, the working paper documentation, and
the test of controls performed.

Independent Auditor’s Report on Compliance with Laws, Regulations, Contracts
and Grants Based on an Audit of Consolidated Financial Statements Performed in
Accordance with Government Auditing Standards. The auditor is required to
determine whether the recipient has complied with laws and regulations that may have a
direct and material effect on the determination of financial statement amounts. We
reviewed the audit program for the appropriate procedures, the working paper
documentation, its support, and the compliance tests performed.

Independent Auditor’s Report on Compliance With General Requirements
Applicable to Federal Awards Programs. The auditor is required to determine
whether the recipient has complied with laws and regulations that may have a direct and
material effect on any of its major Federal programs. General requirements are those
that could have a material effect on the recipient’s financial statements including those
prepared for Federal programs. The auditors’ procedures were limited to those
prescribed in the OMB Circular A-133 Compliance Supplement. We reviewed the
audit program for the appropriate procedures, compared the audit program steps to
those in the Compliance Supplement to make sure that all areas were audited, reviewed
the working paper documentation and its support, reviewed the compliance tests
performed, and evaluated selected compliance items.

Independent Auditor’s Report on Compliance With Specific Requirements
Applicable to Major Federal Award Programs. The auditor is required to determine
whether the recipient has complied with laws and regulations that may have a direct and
material effect on its major Federal programs, including Types of Services Allowed or
Unallowed; Eligibility; Matching, Level of Effort, and/or Earmarking Requirements;
Special Reporting Requirements; and Special Tests and Provisions. We reviewed the
audit program for the appropriate procedures, compared the audit program steps to
those in the Compliance Supplement to make sure all areas were audited, reviewed the
working paper documentation and its support, reviewed the compliance tests
performed, and reevaluated selected compliance items.




                                         5
       Schedule of Findings and Questioned Costs. The auditor is required to report all
       instances of material noncompliances in the audit report. We reconciled the findings in
       the working papers to the audit report to make sure that the report includes all findings
       identified in the working papers and that the findings are properly supported. A
       complete listing of the findings are in Enclosure 1.

Comments

       Because this report contains no findings or recommendations, written comments are not
       required. We appreciate the courtesies extended during our review. If you have
       questions on this report, please contact Ms. Barbara Smolenyak, Program Director, at
       (703) 604-8761. The report distribution is in Enclosure 2.




                                              Donald E. Davis
                                      Deputy Assistant Inspector General
                                        for Audit Policy and Oversight

Enclosures




                                               6
                             Riverside Research Institute
                      Schedule of Findings and Questioned Costs
                        FiiaI Year Ended November 30, 19%


I. Berenson & Company LLP

Audit Report                                        Questioned    Resolution
  Page No.                Description                costs         Agency

25-26           Noncompliance With OMB Circular
                   A-l 10 Cash Management
                   Requirements for grants          $226,85 1       DOD


II. Defense Contract Audit Agency

                                                    Questioned    Resolution
Audit Report              Description                costs         Agency

221 l-           Noncompliance With OMB Circular
97B 110503225       A- 110 Cash Management
                    Requirements for grants           N/A          DOD




                                                                     Enclosure 1
                               Riverside Research Institute
                          Fiscal Year Ended November 30, 1996

                                      Distribution List   ~



The Board of Trustees
Riverside Research Institute
330 West 42nd Street
New York, New York 10036

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, Virginia 22060-6219

Commander
Defense Contract Management Command
8725 John J. Kingman Road, Suite 4539
Fort Belvoir, Virginia 22060-3060

Branch Manager
Defense Contract Audit Agency
New York Branch Office
201 Varick Street, Room 615
New York, New York 10014-4882

Director, Defense Procurement
Office of the Under Secretary of Defense
 for Acquisition and Technology
3060 Defense Pentagon
Washington, DC 20301-3060

Director, Defense Research and Engineering
Office of the Under Secretary of Defense
 for Acquisition and Technology
3030 Defense Pentagon
Washington, DC 20301-3030

Chief, Office of Naval Research
800 North Quincy Street
Arlington, Virginia 22217-5660




                                                                Enclosure 2
Evaluation Team Members

This report was prepared by the Financial, Performance and Single Audits Division,
Office of the Deputy Assistant Inspector General for Audit Policy and Oversight, DOD.

Barbara E. Smolenyak
Donald D. Steele
Sunil R. Kadam
Janet C. Johnson
